<html>
<title> - BACKPAGE.COM'S KNOWING FACILITATION OF ONLINE SEX TRAFFICKING</title>
<body><pre>[Senate Hearing 115-6]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 115-6

     BACKPAGE.COM'S KNOWING FACILITATION OF ONLINE SEX TRAFFICKING

=======================================================================

                                HEARING

                               before the

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            JANUARY 10, 2017

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                 U.S. GOVERNMENT PUBLISHING OFFICE
24-401 PDF               WASHINGTON : 2017                 
________________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>  
       
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                GARY C. PETERS, Michigan

           Brian Callanan, Staff Director and General Counsel
               Margaret E. Daum, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                           
                           
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator McCaskill............................................     4
    Senator Tester...............................................     6
    Senator Lankford.............................................     7
    Senator Heitkamp.............................................     7
    Senator McCain...............................................     8
    Senator Hassan...............................................     8
    Senator Daines...............................................     9
    Senator Harris...............................................    10
Prepared statements:
    Senator Portman..............................................    39
    Senator McCaskill............................................    43
    Senator Johnson..............................................    47

                               WITNESSES
                       Tuesday, January 10, 2017

Carl Ferrer, Chief Executive Officer, Backpage.com...............    11
Andrew Padilla, Chief Operations Officer, Backpage.com...........    14
James Larkin, Former Owner, Backpage.com.........................    15
Michael Lacey, Former Owner, Backpage.com........................    16
Elizabeth McDougall, General Counsel, Backpage.com...............    17
Nacole S., Mother of Jane Doe 1..................................    20
Tom. S., Father of Jane Doe 1....................................    24
Kubiiki P., Mother of Jane Doe 2.................................    25

                     Alphabetical List of Witnesses

Ferrer, Carl:
    Testimony....................................................    11
Lacey, Michael:
    Testimony....................................................    16
Larkin, James:
    Testimony....................................................    15
McDougall, Elizabeth:
    Testimony....................................................    17
P., Kubiiki:
    Testimony....................................................    25
    Prepared statement...........................................    53
Padilla, Andrew:
    Testimony....................................................    14
S., Nacole:
    Testimony....................................................    20
    Prepared statement...........................................    48
S., Tom:
    Testimony....................................................    24
    Prepared statement...........................................    51

                                APPENDIX

Staff Report.....................................................    56
Statement submitted by Sara Loe..................................   109
Letter from Ropes and Gray.......................................   112
Statement submitted by Robert Corn-Revere........................   114
Correspondence submitted by Senator Portman......................   115
Statement submitted by Akin Gump Strauss Hauer & Feld, LLP.......   135

 
     BACKPAGE.COM'S KNOWING FACILITATION OF ONLINE SEX TRAFFICKING

                              ----------                              


                       TUESDAY, JANUARY 10, 2017

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, McCain, Lankford, Daines, 
Johnson, McCaskill, Tester, Heitkamp, Hassan, and Harris.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. The Committee will come to order. We are 
here this morning to address a very serious topic. It is about 
sex trafficking. It is about selling children online.
    More than 20 months ago, this Subcommittee launched a 
bipartisan investigation concerning how sex traffickers use the 
Internet to ply their trade. Experts, including many of the 
victims I have spoken to in my home State of Ohio, tell us that 
this crime has increasingly moved from the street to the 
smartphone.
    The National Center for Missing and Exploited Children 
(NCMEC) reported an 846-percent increase in reports of 
suspected child sex trafficking from 2010 to 2015--a spike the 
organization found to be ``directly correlated to the increased 
use of the Internet to sell children for sex.'' Backpage.com 
sits at the center of that online black market. This is a 
large, profitable company: Backpage operates in 97 countries 
and 934 cities worldwide and was last valued at well over a 
half-billion dollars. According to an industry analysis in 
2013, eight out of every ten dollars spent on online 
commercial sex advertising in the United States went to one 
website--Backpage.
    The National Center for Missing and Exploited Children 
tells us that Backpage is linked to nearly three-quarters of 
all suspected child sex trafficking reports that it receives 
from the general public through its ``CyberTipline.'' And 
according to a leading anti-trafficking organization called 
``Shared Hope International,'' ``[s]ervice providers working 
with child sex trafficking victims have reported that between 
80 percent and 100 percent of their clients have been bought 
and sold on Backpage.com.'' That has certainly been my 
experience as I have talked to victims of sex trafficking in 
Ohio.
    Based on this record, our Subcommittee saw a compelling 
need to investigate the business practices of Backpage, 
especially the efforts it takes to prevent use of its site by 
sex traffickers.
    We thought that might be simple enough because Backpage 
actually promotes itself as a ``critical ally'' in the fight 
against human trafficking. The company says it ``leads the 
industry'' in its screening of advertisements for illegal 
activity--a process it calls ``moderation.'' In fact, 
Backpage's top lawyer, Elizabeth McDougall, has described their 
moderation process as the key tool for, and I quote, 
``disrupting and eventually ending human trafficking via the 
World Wide Web.''
    Despite these boasts, Backpage refused to cooperate with 
the Subcommittee's investigation. They defied our subpoena, 
failing to appear at a November 2015 hearing or provide the 
requested documents.
    In response, the Subcommittee brought the first civil 
contempt action authorized by the Senate in more than 20 years. 
And in August 2016, the Subcommittee prevailed and secured a 
Federal court order rejecting Backpage's meritless objections 
and compelling the company to turn over the subpoenaed 
documents.
    It is now clear why Backpage fought so hard to withhold 
this information. The Subcommittee published a staff report 
yesterday afternoon that conclusively shows that Backpage has 
been more deeply complicit in online sex trafficking than 
anyone imagined. Without objection, that report will be made 
part of the record.\1\
---------------------------------------------------------------------------
    \1\ The Subcommittee Report appears in the Appendix on page 56.
---------------------------------------------------------------------------
    Our report demonstrates that Backpage has concealed 
evidence of crimes by systematically deleting words and images 
suggestive of illegal conduct from advertisements submitted to 
their website before publishing the ads. And some of those ads 
involved child sex trafficking. Backpage's editing process 
sanitized the content of millions of advertisements and hid 
important evidence from law enforcement.
    This story begins in 2006, apparently, when Backpage 
executives began instructing staff responsible for screening 
ads--known as ``moderators''--to edit the text of adult ads to 
conceal their true nature. By October 2010, Backpage executives 
formalized a process of both manual and automated deletion of 
incriminating words and phrases in ads.
    A feature known as the ``Strip Term From Ad filter'' did 
most of the work. Backpage Chief Executive Officer (CEO) Carl 
Ferrer personally directed his employees to create this 
electronic filter to ``strip''--that is, to delete--hundreds of 
words indicative of sex trafficking or prostitution from ads 
before publication.
    To be clear, this filter did not reject ads for illegal 
activity. Backpage executives were afraid to cut into profits 
and, in Ferrer's words, ``piss off a lot'' of customers. 
Instead, the Strip Term From Ad filter simply altered ads to 
conceal signs of illegality. They put profits ahead of 
vulnerable women and children.
    The evidence is clear that Backpage deliberately edited out 
words indicative of child sex trafficking and other crimes from 
the ads. This list of terms is chilling. Starting in 2010, 
Backpage automatically deleted words including ``Lolita,'' 
``teenage,'' ``rape,'' ``young,'' ``little girl,'' ``teen,'' 
``fresh,'' ``innocent,'' ``school girl,'' and even ``Amber 
Alert''--and then published the edited versions of the ads to 
their website. Backpage also systematically deleted scores of 
words that were indicative of prostitution.
    Backpage claims their staff reviews ads to avoid child 
exploitation, but these terms were stripped out before anyone 
at Backpage even looked at the ad. And when law enforcement 
officials came looking for more information about suspicious 
ads--as they routinely did--Backpage had already destroyed the 
original ad posted by the pimp or trafficker. The evidence was 
gone.
    Think about the real-world effect of this practice:
    A trafficker submits an ad on Backpage.com containing a 
word like ``Lolita'' or ``teen''--a pretty good clue that a 
crime may be afoot.
    But then Backpage's Strip Term From Ad filter would delete 
the problematic term and the remainder of the ad would be 
published.
    Of course, this editing changed nothing about the real age 
of a person being sold for sex or the real nature of the 
advertised transaction.
    But as one Backpage executive explained, thanks to the 
filter, Backpage ads looked ``cleaner than ever'' to the public 
eye.
    We will never know for sure how many girls and women were 
subject to abuse and exploitation that Backpage.com helped to 
conceal. By Backpage's own estimate, the company was editing 
``70 to 80 percent of ads'' in the commercial-sex section 
either manually or automatically by late 2010. Based on our 
best estimate, this means that Backpage was editing well over 
half a million ads each year. It is unclear whether and to what 
extent Backpage still uses the Strip Term From Ad filter, but 
internal emails indicate that the company was using the filter 
to some extent as recently as April 2014.
    These are not the practices of an ``ally'' in the fight 
against human trafficking. These are the practices of a 
corporation intent on profiting from human trafficking--and 
human misery--and profit they have, at the expense of countless 
innocent victims.
    Backpage has not denied a word of these findings. Instead, 
several hours after the report was issued yesterday afternoon, 
the company announced the closure of its adult section--
claiming ``censorship.'' But that is not censorship. That is 
validation of the findings in the report.
    As for this new development, I will just quote from part of 
the National Center for Missing and Exploited Children's 
statement about Backpage's closure of its ``adult'' site. They 
said, and I quote: ``We are gratified to know that as a result 
[of this closure], a child is now less likely to be sold for 
sex on Backpage.com.''
    Our Ranking Member, Senator McCaskill, will have more to 
say about other key findings in our report. And I just want to 
conclude by thanking her and thanking her staff for their 
shoulder-to-shoulder work with my team at PSI on this 
bipartisan investigation. I am also grateful to the Members of 
the full Committee and the Subcommittee and the Senate as a 
whole for unanimously supporting us as we pursued the 
enforcement of the subpoena against Backpage.com.
    In the weeks and months ahead, I intend to explore whether 
potential legislative remedies are necessary and appropriate to 
end the facilitation of online sex trafficking that 
Backpage.com has pioneered. We will have more to say on that 
later.
    With that, I want to turn to Senator McCaskill for her 
opening statement and to tell my colleagues you are welcome to 
make a short, let us say two-minute opening statement before 
the first panel. We will also have a second panel coming up 
where you will be asked to participate.
    With that, I would like to turn to Senator McCaskill for 
her opening statement.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Chairman Portman. If this 
hearing stands for anything, it stands for the fact that 
congressional oversight matters and investigations matter. 
Sometimes they are more powerful than a piece of legislation.
    I hope this investigation serves as a very clear sign to 
the American people that both parties can work together the way 
that we have to address one of the most devastating issues in 
our country. Not only have we cooperated in a productive way on 
this Subcommittee, but the Senate as a whole affirmed the 
importance of our investigation by voting unanimously--which, 
by the way, is not a common thing these days in the U.S. 
Senate--in a vote of 96-0 to compel Backpage to respond to our 
reasonable, constitutional, congressional requests. The Senate 
recognized that our investigation into the market leader in 
selling sex online is a legitimate and important use of the 
Subcommittee's authority.
    As the Chairman said, Backpage is a $600 million company 
built on selling sex, and, importantly, on selling sex with 
children. And the company knows it. According to one former 
moderator, his colleagues ``went through the motions putting 
lipstick on a pig, but when it came down to it, it was what the 
business was about.'' Several former moderators even told the 
Subcommittee that certain Backpage employees contacted 
prostitutes advertised on the site and used their services and 
told about it. When moderators had the courage to point out 
illegal activity, management came down hard on the employees. 
After one moderator apparently concluded in the account notes 
that a Backpage user was a prostitute, Andrew Padilla, the 
Backpage Chief Operating Officer (COO), stated, and I quote, 
``[l]eaving notes on our site that imply we are aware of 
prostitution, or in any position to define it, is enough to 
lose your job.''
    More troubling, documents produced to the Subcommittee also 
show that Backpage often erred against reporting potential 
child exploitation. In one email, for example, a Backpage 
supervisor instructed moderators that ``[y]oung ads do not get 
deleted unless they are clearly a child.'' ``Young ads do not 
get deleted unless they are clearly a child.''
    A Backpage supervisor also apparently hesitated before 
believing reports from third parties concerning underage 
escorts. In February 2010, for example, a detective alerted 
Backpage to the fact that a 17-year-old girl featured on the 
site had asked the company to remove her photos, but was ``told 
they could not do that until enough people reported her as 
`potentially underage'.''
    As a matter of policy, according to internal documents, 
Backpage will only escalate the review of an ad for child 
exploitation when an individual claims they or an immediate 
family member are at risk; uncles reporting, nephews or 
grandmothers reporting grandchildren will not suffice.
    And, remember--and this is very important--they did not 
turn away ads selling children. We now know as a result of our 
legal battle, based on their own documents, they did not turn 
away ads selling children. They just tried to make it less 
obvious and, worse, coached the traffickers and the pimps on 
how to clean up their ads--not turning away their business. 
Those children were still sold. They just tried to sanitize it. 
That, ladies and gentlemen, is the definition of ``evil''--
simply evil.
    Throughout this investigation, I have spoken of a 15-year-
old girl who was sold for sex on Backpage across the United 
States before seeking help, walking into an emergency room at 
Cardinal Glennon Children's Hospital in St. Louis. According to 
court documents, 
this young woman was walking down a street in Madison, 
Missouri, a small town in my State, in June 2015 when her 
future trafficker--a young man from Park Hills--approached in a 
pickup truck. She was contemplating suicide after a fight with 
her father, and in her distraught state she was coerced into 
joining the young man and his wife as they sold her and 
multiple other girls for sex over a six-week period. Earlier 
this year, Chief Judge Michael Reagan of the Southern District 
of Illinois sentenced the husband and wife perpetrators of this 
crime to life in prison and 20 years, respectively. In handing 
down those sentences, Chief Judge Reagan stated that the couple 
had ``[stripped] an individual of the right to feel secure 
[and] control and trust what she did with her own body.''
    It is crucial that we keep our focus on this 15-year-old 
girl and the experiences of countless other young girls like 
her. The parents of two of these girls are here with us today 
to discuss how their daughters were advertised and sold on 
Backpage. Both girls found themselves trapped, not on a street 
corner, but in an online marketplace that billed children as 
``weekend specials,'' under less stringent rules than those for 
ads selling motorcycles or pets.
    One mother here today--then living in St. Louis with her 
other children--was forced to take the unimaginable step of 
buying time with her daughter through a Backpage ad in a 
desperate attempt to save her.
    These experiences remind us that this investigation is not 
about curbing First Amendment rights--give me a break--rights 
which are now more important than ever. This investigation is 
about understanding how criminals systematically use online 
platforms to transform normal American teenagers into sex 
slaves. As part of this work, it is critical for the 
Subcommittee to understand the efforts companies selling sex 
online undertake to prevent trafficking--not to sanitize it, 
not to clean it up, not to make sure they are making more 
money, but to prevent it. And if our current laws are 
inadequate to spur these efforts, we need to know this, too. 
This is not a punitive, partisan campaign. This is 
congressional oversight.
    At our last hearing, I promised that Chairman Portman and I 
would not go quietly into the night and simply give up in the 
face of repeated roadblocks--lawyering up like no company is 
capable of lawyering up--Backpage has raised against this 
investigation. Working together, we fought Backpage all the way 
to the Supreme Court to vindicate our right to receive the 
documents we requested. We subpoenaed records from banks, 
accounting firms, and court proceedings, and we spoke with 
countless stakeholders and experts in the fight against 
trafficking. And last night, Chairman Portman and I received 
word from Backpage that, in response to our report, the company 
has shut down its adult section across the United States 
effective immediately. Only time will tell if this action is an 
end to Backpage's role in online sex trafficking of children or 
just a cheap publicity stunt.
    In the meantime, I have another promise: I will continue to 
do everything in my power to protect young women--and young 
men--from being exploited and assaulted, on Backpage.com or 
anywhere else. And I know all of my colleagues in the Senate 
agree with me.
    I look forward to getting answers from our panelists today. 
Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator McCaskill.
    We will now recognize colleagues for brief opening 
statements. Senator Tester, you were here first. If you have a 
brief opening statement, you can see the clock has two minutes.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Well, thank you, Senator Portman. I want to 
thank you and Senator McCaskill for having this hearing.
    We have some statistics from Montana: a 100-percent 
increase in human trafficking cases between 2015 and 2016; the 
number of juvenile victims rescued in Montana between 2015 and 
2016 increased by 400 percent. We have a problem out there.
    I have two daughters, I have two granddaughters, and I 
cannot imagine what the victims are thinking about that are 
either here today or watching this online.
    I am in the business of agriculture, and when I hear terms 
like ``bought'' and ``sold,'' I think about cattle and hogs, 
not people.
    Twenty months ago this Subcommittee met, and we asked for 
Backpage to come in and tell us their business model. They 
refused. Senator McCaskill talked about the process that went 
on since then. If you are so damn proud about your business 
model, why weren't you here 20 months ago? Why weren't you here 
to answer the questions?
    We have a problem in this country. We do not need people 
who enable pimps to buy and sell our children. Come in and 
answer the questions, and hopefully you will answer the 
questions today.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Tester.
    Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. I would like to thank the Chairman and 
Senator McCaskill for holding this hearing and for not letting 
go of the issue.
    I worked with students for 22 years and families for 22 
years before I came to Congress. There are many of us on this 
dais, in the crowd right now, and people that are watching that 
spend their time fighting for their families, understanding 
that families sometimes fight and struggle.
    It is abhorrent to me to think that there is a business 
model looking for families that have fallen apart and so they 
can then profit from families that fall apart rather than 
fighting to be able to keep families together.
    The thought that anyone would say that selling a 13-year-
old is something that fits within a business model is 
astounding to me. And to hear someone--or to hear the 
allegations and to be able to read the information about any 
organization that would try to take words away, not to be able 
to contact the seller and say, ``What are you doing? This looks 
like an illegal act,'' but instead say, ``Hey, you cannot post 
it quite that way. Let me help you with a way that you can sell 
this 13-year-old that you can get away with''--that is a very 
different business model than where most of Americans are.
    So this conversation today is not just about Backpage. It 
is about fighting for families, and it is about fighting for 
the dignity of every single person. And it is about holding out 
the opportunity that no one should be able to steal the life 
and the future and the hope and the opportunity from any child. 
That is happening today. Churches, nonprofits, families, 
neighbors are all fighting for them, and it is a good thing 
that we in Congress are fighting with them and alongside them 
in that.
    I look forward to the testimony today to be able to get the 
rest of the details on this and to be able to discover what do 
we do about it in the days ahead.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Lankford.
    Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. First, I want to 
thank you, and our great Ranking Member. Without the tenacity 
of you and your staff, we would not be here today. And, 
unfortunately, we are here today. We are here today because 
every person in this country has an obligation to protect 
children. But we now have knowledge and understanding of a 
business practice that is basically designed to do exactly the 
opposite--to exploit children. And the audacity of a group of 
American citizens wishing to hide behind the First Amendment 
when they exploit children is beyond me. And maybe it eases 
your conscience. Maybe it makes you feel like you are somehow 
championing some good cause. You are not. Your company exploits 
children--children all across this country, not just in places 
like New York City or at a Super Bowl; places like Watford 
City, places like Minot where we rescued a 12-year-old and a 
14-year-old when their mothers discovered them on Backpage.
    How in the world can we allow that to happen in our country 
when a foundational piece of this democracy, as Senator 
Lankford has said, is families and recovering families, helping 
families? These are the most vulnerable children in America. 
And shame on you. Shame on you for hiding behind the First 
Amendment while you exploit children in this country and 
destroy families.
    Senator Portman. Thank you, Senator Heitkamp.
    Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman. I apologize that I 
am chairing a hearing on the Armed Services Committee, and I 
thank you for your courtesy. I would like to thank you, Senator 
Heitkamp, Senator McCaskill, and everyone who has been involved 
in this issue for a long period of time.
    For the past two years, the Permanent Subcommittee on 
Investigations has sought information pertaining to the role of 
Backpage.com in the online buying and selling of children for 
sexual exploitation. We all know that Backpage.com is the 
market leader in commercial sex advertising, and the website 
has been linked to hundreds of human trafficking cases. I was 
gratified to learn of Backpage's announcement last night that 
it will shut down its adult site. I am sure that was a pure 
coincidence. And, again, it is a testimony to the work of this 
Subcommittee.
    We have to, all of us, not just this Committee but all 100 
of us, do everything in our power to put an end to human sex 
trafficking. It is so horrible that a lot of times we shy away 
from discussing it. And as you know, Mr. Chairman, from your 
work, our border States, including my home State of Arizona, 
the trafficking back and forth across the border is a terrible 
issue.
    But I would like to thank the parents on our second panel 
who are here today to discuss the real-life horrors that they 
experienced when their own daughters fell victim to sex 
trafficking because of Backpage's illegal facilitation of 
prostitution and child sex trafficking. Your bravery, your 
strength, and your love for your daughters and other victims is 
essential in fighting this evil. We all thank you.
    I would also like to thank my wife, Cindy, for her 
uncompromising and tireless efforts to prevent human 
trafficking and aid those who have fallen victim to this 
unimaginable crime.
    I thank you again, Mr. Chairman.
    Senator Portman. Thank you, Senator McCain, and we thank 
Cindy McCain for her advocacy globally on this issue. And I 
know she is in the audience with us today. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chairman, and thank 
you, Ranking Member McCaskill, for your tenacity and 
determination.
    I am new to the Senate, but I am not new to this issue. As 
Governor, I worked with members of both parties in my home 
State of New Hampshire to strengthen our laws against human 
trafficking. So it is particularly difficult to come here today 
and really begin to understand the lengths to which a private 
business enterprise would go to circumvent those very efforts.
    There are children in my State and throughout our country, 
as you have heard from my colleagues, who are victims and now 
survivors. And so I am particularly grateful to this 
Subcommittee for the work it has done.
    I will add to the comments of my colleagues that this is 
not just about exploiting families who are struggling or young 
people who are struggling. It is also about exploiting stigma. 
And I am incredibly grateful to the parents who we will hear 
from and who we have been hearing from for their strength and 
bravery in coming forward, because the only way you keep people 
from defeating stigma is to speak up and to talk about the 
experiences of the young people who have been exploited and 
victimized here.
    And so I am grateful to all of the families, to the 
survivors who will continue to speak up and help the American 
people understand this for the devastating exploitation and 
crime that it is.
    My mom taught history at my high school, and she often said 
that what kids need to know more than anything else is that 
they have a grownup in their corner. I am proud today that the 
U.S. Senate is being that grownup in the corner for all of our 
children. I am astounded and horrified that a private business 
enterprise would be the exact opposite in the United States of 
America.
    And so I am grateful to this Committee and eager to work 
with all Members of this body and the American people and the 
citizens of my home State to eliminate human sex trafficking.
    Thank you.
    Senator Portman. Thank you, Senator Hassan.
    Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Chairman Portman, Ranking Member 
McCaskill. I am new to this Committee. I am not as new to the 
Senate as my two new colleagues, and welcome to the U.S. Senate 
and to this Committee as well.
    Thank you for your tenacity for continuing to follow 
through on this issue. I cannot imagine as a parent--and there 
are a lot of parents here on the dais, and grandparents. We are 
on this side of the dais, but to be a parent here today with 
the courage to come and talk about what has happened to your 
family and your children, I commend you for that and thank you 
for your courage.
    Think about the tenacity of this Committee, and think about 
William Wilberforce this morning who fought to abolish slave 
trade, the British parliamentarian who fought a lifetime to 
abolish the slave trade in England. In fact, the great hymn 
``Amazing Grace'' was written by a slave trader who became--who 
was a friend of Wilberforce, was influenced by Wilberforce's 
work to abolish slave trade. This is what this is. This is 
modern-day slavery we have in our country, except we are not 
talking about adults; we are talking about children. And as my 
colleague from Montana said, we use these terms when we talk 
about animals, not people. We talk about rescues at the pound, 
dogs and cats, not people. It is astounding.
    So I want to thank again the parents, your courage. These 
hurts will not go away. You get one childhood. And to have the 
memories that these children have, they do not go away. Those 
videotapes will play in their minds forever. And we are here to 
stand up on behalf of those children, the most vulnerable, so 
that children in this generation--future generations will not 
have to be in such a hearing and have parents come and tell 
their story.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Daines.
    Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. I want to thank you, Mr. 
Chairman, Senator McCaskill, and this Committee for the work 
that you have done. As a career prosecutor, I have personally 
handled human trafficking cases, and one of the obvious points 
is that these are some of the most voiceless and vulnerable 
members of our society, these victims. And I am heartened to 
see that these victims have been given the power of the voice 
of the U.S. Senate to expose what has been clear and pure 
exploitation for profit.
    To be clear, this is a crime. It is a crime that is rightly 
punishable by incarceration in prison because of the nature of 
the harm to the victims and the outrageousness of the conduct 
that is predatory in nature.
    I am also heartened to hear that these hearings have 
exposed the fact that one cannot cowardly sit behind a computer 
committing their crime and then suppose that the Communications 
Decency Act (CDA) would shield them. Quite the contrary. These 
individuals must be held accountable. These allegations must be 
given voice. And we have to do all that is right to make sure 
that we as a civil society protect always the most vulnerable 
among us and not take advantage of them, assuming nobody will 
care. These hearings have made clear we care.
    Senator Portman. Thank you, Senator Harris.
    We would now like to call our first panel of witnesses for 
today's hearing. Carl Ferrer is the CEO of Backpage.com. 
Michael Lacey is a co-founder of Backpage.com. James Larkin is 
a co-founder of Backpage.com. Elizabeth McDougall is the 
general counsel of Backpage.com. And, finally, Mr. Andrew 
Padilla is the chief operating officer of Backpage.com.
    We appreciate your attendance at today's hearing, and I 
would ask you to step forward. It is the custom of this 
Subcommittee to swear in all witnesses, so at this time I would 
ask you to please remain standing and raise your right hand. Do 
you swear that the testimony you are about to give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Ferrer. I do.
    Mr. Lacey. I do.
    Mr. Larkin. I do.
    Ms. McDougall. I do.
    Mr. Padilla. I do.
    Senator Portman. Let the record reflect that the witnesses 
answered in the affirmative. Please be seated.
    I understand from counsel that none of you have prepared 
opening statements to offer at this time, so we will move to 
questions from the Subcommittee.
    Mr. Corn-Revere. Mr. Chairman, might I be recognized to 
make a brief statement on behalf of the witnesses?
    Senator Portman. You may not. If you are interested in 
being part of the panel and being sworn in, we might start a 
third panel to hear from you. But, no, we would like to hear 
from the witnesses today who have just been duly sworn in.
    Mr. Corn-Revere. Could I then request that my statement be 
made part of the record?\1\
---------------------------------------------------------------------------
    \1\ The statement of Mr. Corn-Revere appears in the Appendix on 
page 114.
---------------------------------------------------------------------------
    Senator Portman. Your statement will be made part of the 
record.
    Before we begin any questioning, I would like to address 
all the witnesses about one important topic. Your lawyers have 
advised that you may assert your Fifth Amendment right not to 
answer questions that may tend to incriminate you. The 
Subcommittee respects the constitutional rights of witnesses 
that testify before it. I would ask you to listen to the full 
question put before you should you choose to take the Fifth and 
before you answer. You should clearly understand that any 
statement in response to the question other than an invocation 
of that privilege may be treated as a waiver of those Fifth 
Amendment rights. The Subcommittee wants to be fair.
    The first question I have is for you, Mr. Ferrer. As you 
know, the last time you were subpoenaed to testify before us 
was in November 2015. You failed to show up. I have some 
questions for you about that, but first, just so everybody 
understands what happened, let me recap it.
    On October 1, 2015, we subpoenaed you to produce documents 
and to appear in person to give testimony. The hearing was set 
for November 19, 2015. Just three days before the hearing, on 
November 16, your lawyers wrote us a letter and asked that you 
be excused and for the first time revealed you had planned some 
international travel during our hearing. Senator McCaskill and 
I denied that request. You had been told in plenty of time to 
make plans to appear on that date. Nevertheless, the day before 
the hearing, your lawyers wrote back and for the first time 
announced that you refused to show up.
    Without objection, the correspondence I have described 
below will become part of the record of this hearing.\2\
---------------------------------------------------------------------------
    \2\ The correspondence submitted by Senator Portman appears in the 
Appendix on page 115.
---------------------------------------------------------------------------
    So my first question, Mr. Ferrer, is really a very simple 
one. Could you please tell the Subcommittee precisely where you 
were and what you were doing during our hearing on November 19, 
2015?

TESTIMONY OF CARL FERRER, CHIEF EXECUTIVE OFFICER, BACKPAGE.COM

    Mr. Ferrer. Is this live? Can you hear me now?
    Senator Portman. Yes, I can.
    Mr. Ferrer. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendments.
    Senator Portman. OK. I will move on to something else. Mr. 
Ferrer, your company has repeatedly avoided liability by 
invoking Section 230 of the Communications Decency Act. That 
has been referenced a couple times here this morning. This act 
protects websites who just post content created by third 
parties. But our report issued today and posted yesterday 
afternoon demonstrates conclusively that your reliance on this 
Communications Decency Act section has not been accurate. It 
has been a fraud, frankly, on the courts, on the victims who 
have sued you, and on the public. Why do I say that? I say that 
because Backpage took an active hand in creating the ads on 
your site. As I talked about in my opening statement, you 
systematically deleted words, phrases, and images submitted by 
users that revealed that the posted ad is for an illegal 
transaction, not just prostitution but also child sex 
trafficking. Documents show that you called the practice 
``stripping out'' content from an ad. You even maintained an 
extensive Strip Term From Ad list of words that we talked about 
earlier.
    Let us talk about one of the words on that list: 
``Lolita.'' ``Lolita,'' of course, is the title of a book about 
a man who becomes sexually involved with a 12-year-old girl. 
With that in mind, I want to call your attention to page 156 of 
the appendix to the staff report. You should have that in front 
of you, page 156. This is an email you wrote to Mr. Padilla 
here on November 17, 2010, under the heading ``Items I intend 
to implement,'' Item 1c. reads, and I quote, ``Lolita-ban or 
strip out (it is code for under aged girl.)"
    Let me read that again. It says, and I quote: ``Lolita-ban 
or strip out (it is code for under aged girl.)"
    Now let us look at page 158 of this same appendix. This is 
an email you received from Mr. Padilla explaining that he was 
preparing a spread sheet of, and I quote, ``the most current 
list of coded terms set to be stripped out.'' We have a copy of 
that spread sheet, and it appears in the appendix on page 161.
    So my question to you, Mr. Ferrer, in the document in front 
of you, you have highlighted one of the many words on that 
list. Can you read that highlighted word on that list?
    Mr. Ferrer. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendments.
    Senator Portman. OK. In that case, I will read it. The word 
is ``Lolita.'' There are some other words on that list: 
``teenage,'' ``rape,'' ``young.'' Just so everyone understands, 
this is a document listing code words to be stripped out of 
advertisements. And the ads were then posted on the Internet, 
on Backpage, anyway. So consistent with what we talked about in 
the opening statement, this was a way to edit these ads but 
still take the payment and profit from the ads.
    Next question, Mr. Ferrer: If an underage girl was being 
sold for sex on Backpage and her pimp puts the word ``Lolita'' 
in the advertisement, stripping that term out of the ad does 
not magically change the girl's age, does it?
    Mr. Ferrer. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendments.
    Senator Portman. OK. We respect your right not to answer, 
but let me answer for you. The answer is, of course, no. The 
fact that these terms were stripped out through this screening 
process does not mean that that girl's age was magically 
changed. In fact, what you have done, of course, is to cover up 
the fact that many underage girls were sold on your sites, 
making it harder for law enforcement, parents, and committed 
aid groups to find those kids who need help by stripping out 
those words.
    Let us move on to the next topic, and that is the ownership 
of the company. Mr. Ferrer, our report shows that you own 
Backpage.com through a series of Dutch shell companies. 
Backpage's tax adviser told our lawyers that structuring the 
transaction in that way has no tax advantages to you because 
all the money flows back to you here in the United States. So 
we wonder: Why did you structure the company in that way? Was 
it structured in that way in order to obscure the fact that you 
were the buyer of the company?
    Mr. Ferrer. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendments.
    Senator Portman. OK. Mr. Ferrer, is it your intention to 
invoke the Fifth Amendment privilege with respect to questions 
on any topic?
    Mr. Ferrer. Yes.
    Senator Portman. OK. The Subcommittee, as I said, respects 
the assertion of the Fifth Amendment rights, and on that basis 
we will be excusing you at the conclusion of this panel.
    I would like to turn the questioning over to Senator 
McCaskill now.
    Senator McCaskill. I am going to have a few questions for 
Mr. Padilla.
    Mr. Padilla, who is the chief operating officer of the 
company. Let me start with a question about the seriousness of 
the concerns raised by the National Center for Missing and 
Exploited Children with your company about child exploitation 
on Backpage. This has been an ongoing effort because of the 
almost three out of four children reported to the National 
Center for Missing and Exploited Children who were advertised 
through Backpage. So, obviously, this group of people dedicated 
to this heart-breaking issue had a great deal of conversation 
in an attempt to help these children with your company.
    The company's main priority with regard to moderation, even 
after consultation with NCMEC, seems to have been combating 
overreporting of suspicious ads rather than underreporting. The 
documents that we subpoenaed uncovered an email you sent in 
July 2011 to a manager of a moderating team stating, ``I agree 
that over-cautiousness is as big of a problem as moderators 
that miss a lot of violations.''
    In fact, Mr. Padilla, an email from you to another Backpage 
supervisor seems to imply that Backpage even artificially 
limited the number of reports it made to organizations like 
NCMEC. You stated, and I quote, in this email: ``If we do not 
want to blow past 500 reports this month, we should not be 
doing more than 16 a day.''
    Now, to be clear, what you are saying is underreport 
because we do not want them to know how bad it is.
    Can you explain to the Committee what would be the 
motivating factor for you telling the people on the front lines 
that over-cautiousness when it comes to selling children for 
sex could be a problem or why it would be a problem if you 
accurately reported the number of ads you were seeing where 
children were for sale?

    TESTIMONY OF ANDREW PADILLA, CHIEF OPERATIONS OFFICER, 
                          BACKPAGE.COM

    Mr. Padilla. After consultation with counsel, I decline to 
answer your question based on the rights provided by the Fifth 
and First Amendments.
    Senator McCaskill. It also appears that when Backpage did, 
in fact, take action to moderate adult ads, it did so to remove 
evidence of child exploitation, as we have said in our opening 
statements. In recent productions to the Subcommittee, Backpage 
provided a spread sheet containing the Strip Term From Ad list, 
which the Chairman has just referred to; 250 specific terms 
were being told to be stripped, including terms such as, in 
addition to the ones that the Chairman referred to, 
``cheerleader,'' ``teen,'' and even ``Amber Alert,'' meaning 
that Backpage has apparently removed certain words and phrases 
indicative of child trafficking and child exploitation from the 
ads that it then goes on to post.
    In fact, in a 2011 email to Mr. Padilla, to you, about the 
moderating practices, a Backpage moderator stated, and I quote, 
``I had been operating under the assumption before that anytime 
we saw the word `young,' we were to edit it out.''
    Similarly, in an email to Mr. Ferrer regarding the term 
``Amber Alert'' in Backpage ads, you stated, ``I have actually 
seen that before, and we have edited it out.''
    Mr. Padilla, can you confirm that Backpage and its 
moderators routinely edited out ``Amber Alert,'' a term 
referring to an emergency alert of a child abduction, from 
adult ads?
    Mr. Padilla. After consultation with counsel, I decline to 
answer your question based on the rights provided by the Fifth 
and First Amendments.
    Senator McCaskill. Mr. Padilla, am I to understand from 
your responses that you will invoke your Fifth Amendment right 
in response to any and all questions posed to you here today?
    Mr. Padilla. Yes.
    Senator McCaskill. Let the record reflect that you have 
availed yourself of the privileges afforded you under the 
Constitution under the Fifth Amendment to not give testimony 
that might tend to incriminate you. The Subcommittee respects 
your constitutional right under the Fifth Amendment to decline 
to answer the questions, and you are excused from the witness 
table.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator McCaskill.
    Mr. Larkin, I have a couple questions for you. You said 
publicly that you sold Backpage in 2014. Who did you sell 
Backpage to?

     TESTIMONY OF JAMES LARKIN, FORMER OWNER, BACKPAGE.COM

    Mr. Larkin. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and the Fifth Amendment.
    Senator Portman. Back in 2014, it was reported that 
Backpage was sold to a mysterious Dutch entity, as you know. We 
now know that mysterious Dutch entity is actually Mr. Ferrer, 
who is here today. We have uncovered that and also information 
that you and Mr. Lacey loaned him about 600 million bucks to 
buy your company from you. Until he pays off that loan, we also 
uncovered that you and Mr. Lacey continue to enjoy significant 
control over the company.
    Mr. Larkin, do you not still exercise substantial direction 
and control over Backpage?
    Mr. Larkin. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and the Fifth Amendments.
    Senator Portman. OK. Let us talk about the role that you 
and Mr. Lacey have played in the concealment practices we have 
reported on this morning. As you know, we have reviewed over 
one million pages of Backpage's internal documents now. Many of 
those documents include extensive discussion of editing 
advertisements. Inside the company, that certainly was not a 
secret. But it appears that you instructed Mr. Ferrer and 
others to make sure it stayed a secret from outsiders. 
Backpage's official public statements and public interviews 
usually given by Ms. McDougall, whom we will hear from in a 
moment, said nothing about Backpage's real moderation system, 
deleting words that reveal illegality, posting the 
advertisement, and taking the money.
    It is not hard to guess why you did not want anybody to 
know about that, which brings me to an email you wrote in 2011 
to Carl Ferrer. This is on page 432 of the appendix, which you 
have before you. You wrote this: ``I want you to think about 
any of the information in this being made public. We need to 
stay away from the very idea of `editing' the posts, as you 
know.''
    So, Mr. Larkin, is the reason you needed to ``stay away 
from the very idea of `editing' the posts'' that you knew that 
editing posts means that you really do not have this protection 
under the Communications Decency Act, the immunity that you 
have been selling to courts all around the country, meaning 
that you could be sued and prosecuted for Backpage's conduct 
just like anyone else? Is that the reason that you needed to, 
as you said, ``stay away from the very idea of `editing' the 
posts''?
    Mr. Larkin. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and the Fifth Amendments.
    Senator Portman. Mr. Larkin, is it your intention to invoke 
your Fifth Amendment privilege with respect to questions on any 
topic?
    Mr. Larkin. Yes, sir.
    Senator Portman. Again, the Subcommittee respects that 
assertion of the Fifth Amendment, and on that basis you will be 
excused at the conclusion of this panel.
    I would now like to recognize Senator McCaskill to ask 
further questions.
    Senator McCaskill. Mr. Lacey, our investigation reveals 
that Backpage knows that there are illegal activities on its 
site and is well aware that illegal activity takes place on the 
site. Mr. Padilla, for example, threatened with termination an 
employee who noticed occurrences of prostitution during his 
moderation, threatening his job for leaving notes about 
prostitution on the account.
    Similarly, Mr. Lacey, notes from a meeting between you and 
the National Center for Missing and Exploited Children in 2011 
State that when the issue of adult prostitution was raised, 
you--``lit into me with a vengeance. He said his company agreed 
to eliminate underage kids on their site being sold for sex, 
but said that adult prostitution is none of my business.''
    Given these communications, Mr. Lacey, do you admit that 
illegal behavior forms the cornerstone of user activity on 
Backpage?

     TESTIMONY OF MICHAEL LACEY, FORMER OWNER, BACKPAGE.COM

    Mr. Lacey. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendment.
    Senator McCaskill. This one is a good one. Mr. Lacey, in 
response to an article in 2012 involving a child victim 
advertised on your site, you stated in an email that, ``This is 
only the second case developed by the Attorney General,'' and 
that ``two cases is not yet a tsunami of underage 
trafficking.''
    You further stated that, after prosecuting these cases and 
treating the victims, people should stop ``pandering to 
yahoos.''
    Yet, according to NCMEC, suspected child sex trafficking 
has increased by 846 percent in the last 5 years, and the vast 
majority of the child sex trafficking tips they receive involve 
Backpage.
    Through media reports alone, this Subcommittee has done the 
frankly big job of identifying all of the underage cases in 
public media of trafficking of children on Backpage. We have 
identified more than 400 cases in 47 States linked to Backpage 
advertising. And when this illegal activity occurs, Backpage 
moderators are not always up to the task.
    At the risk of being labeled another ``yahoo,'' Mr. Lacey, 
do you acknowledge today for the record that child sex 
trafficking is a serious problem on Backpage?
    Mr. Lacey. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendment.
    Senator McCaskill. As shown in its document productions, 
Backpage routinely hears from concerned parents, relatives, and 
friends about ads featuring underage or trafficked loved ones. 
But while Backpage employees responded to many of these 
complaints, some moderators expressed disbelief toward the 
individuals reporting suspected underage ads.
    In February 2012, for example, when a moderator asked if 
she could delete an ad based on a parent reporting that her 
missing underage daughter had been forced into prostitution, 
Mr. Padilla stated, and I quote, ``Yes, I think that is doing 
enough. We do not always want to remove ads based on user 
complaints, but she is not being dramatic.''
    Mr. Lacey, I understand that reporting guidelines at 
Backpage were vague, but is it a requirement that parents not 
be dramatic in order to have ads featuring their underage 
children removed from your site?
    Mr. Lacey. After consultation with counsel, I decline to 
answer your question based on the rights provided by the First 
and Fifth Amendment.
    Senator McCaskill. Mr. Lacey, am I to understand from your 
responses that you will invoke your Fifth Amendment right in 
response to any and all questions posed to you here today?
    Mr. Lacey. Clearly.
    Senator McCaskill. Let the record reflect that you have 
availed yourself of the privileges afforded you under the 
Constitution's Fifth Amendment not to give testimony that might 
tend to incriminate you. The Subcommittee respects your 
constitutional right under the Fifth Amendment to decline to 
answer questions, and you are excused from the witness table.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator McCaskill.
    Ms. McDougall, I have a few questions for you. Backpage 
argued in the courts for the better part of last year that the 
Permanent Subcommittee on Investigations was seeking, and I 
quote, ``constitutionally protected documents'' through a 
subpoena that ``strikes at the heart of Backpage's editorial 
decisionmaking.''
    I would like to direct you to a couple documents about that 
so-called editorial decisionmaking. The first is the spread 
sheet at Appendix 000158. Andrew Padilla in this document 
described as the ``most current list of coded words to be 
stripped out of adult ads,'' including ``Lolita,'' ``teenage,'' 
``rape,'' ``young.''
    The second document is the spread sheet attached to the 
email at Appendix 000329, which outlines additional words that 
Backpage stripped from these ads, including ``little girl,'' 
``teen,'' even ``Amber Alert.'' These are the words Backpage 
scrubbed from the ads on its website.
    Ms. McDougall, Backpage has argued to the Subcommittee and 
again in Federal court the documents we subpoenaed were all 
protected by the First Amendment to our Constitution. I went to 
law school, so did Senator McCaskill, and we do not remember 
learning that instructions to cover up a crime are protected 
speech. But you argue that they did.
    Ms. McDougall, I would like you to look at the two 
documents I just mentioned, the documents about stripping words 
like ``rape'' and ``little girl'' from ads before publication, 
and tell me whether it is still your opinion that they are 
protected by the First Amendment.

TESTIMONY OF ELIZABETH MCDOUGALL, GENERAL COUNSEL, BACKPAGE.COM

    Ms. McDougall. After consultation with counsel, I decline 
to answer your question based on the rights provided by the 
Fifth and the First Amendments, and to the extent any 
particular question might require the disclosure of protected 
attorney-client communications or attorney work product, I also 
decline, relying on the common law privileges.
    Senator Portman. Ms. McDougall, do you believe that 
Backpage is entitled to immunity under Section 230 of the 
Communications Decency Act for ads which deletes these kinds of 
words?
    Ms. McDougall. After consultation with counsel, I decline 
to answer your question based on the rights provided by the 
Fifth and First Amendments, and to the extent any particular 
question might require the disclosure of protected attorney-
client communications or attorney work product, I also decline, 
relying on the common law privileges.
    Senator Portman. OK. Ms. McDougall, in a sense we are here 
today because of your testimony. On June 19, 2015, when you sat 
down for an extended interview with our lawyers, you said under 
questioning that Backpage sometimes edits out offending words 
and images from advertisements. As far as I know, this 
Subcommittee is the first to report that information. You never 
disclosed that to law enforcement, as I understand it, and you 
certainly did not disclose that to the victim plaintiffs in the 
many lawsuits against Backpage.
    As general counsel since April 2012, you have been 
responsible for the company's litigation. Recently, the First 
Circuit Court of Appeals, in an opinion joined by retired 
Supreme Court Justice David Souter, said that ``a persuasive 
case'' had been ``made that Backpage has tailored its website 
to make sex trafficking easier.'' But then the court affirmed 
the dismissal of the lawsuit under the Communications Decency 
Act for the familiar reason that Backpage was just publishing 
third-party content and that Congress had made it immune for 
that.
    My question is this: When Backpage filed its briefs in the 
First Circuit case under your supervision, were you aware of 
Backpage's practice of altering the content of adult 
advertisements by removing evidence of criminality?
    Ms. McDougall. After consultation with counsel, I decline 
to answer your question based on the rights provided by the 
Fifth and First Amendments, and to the extent the particular 
question might require the disclosure of protected attorney-
client communications or attorney work product, I also decline, 
relying on the common law privileges.
    Senator Portman. Ms. McDougall, can you tell us if your 
outside litigation counsel in that case was aware of your 
editing practices when they signed and submitted the briefs in 
that case, convincing the court to throw out the lawsuit on the 
theory that Backpage just posts whatever it receives, other 
people's content?
    Ms. McDougall. After consultation with counsel, I decline 
to answer your question based on the rights provided by the 
Fifth and First Amendments, and to the extent any particular 
question might require the disclosure of protected attorney-
client communications or work product, I also decline, relying 
on the common law privileges.
    Senator Portman. OK. Well, let me ask you one more 
question. I would like to ask you about Backpage's cooperation 
with law enforcement. You all talk a lot about that. Here is 
what you said, and I quote: ``Accommodation for Backpage.com's 
responsiveness and thoroughness with law enforcement 
investigations and stings are replete in our records. 
Backpage.com responds to law enforcement requests within 24 
hours or less in most cases.''
    I think one thing is very clear, and it comes out in the 
report, and that is that what would assist law enforcement in 
their investigations is to have the original unedited 
advertisements for the sale of a trafficked child or adult 
prostitute as opposed to the altered version that appears on 
your website, so providing law enforcement the actual ad that 
you received.
    Ms. McDougall, when responding to law enforcement requests 
or grand jury subpoenas, did you ever tell law enforcement that 
ads reported to them may have been sanitized?
    Ms. McDougall. After consultation with counsel, I decline 
to answer your question based on the rights provided by the 
Fifth and First Amendments, and to the extent any particular 
question might require the disclosure of protected attorney-
client communications or attorney work product, I also decline, 
relying on the common law privileges.
    Senator Portman. Ms. McDougall, is it your intention to 
invoke your Fifth Amendment privilege with respect to questions 
on any topic?
    Ms. McDougall. Yes, it is.
    Senator Portman. OK. Again, the Subcommittee respects your 
assertion of the Fifth Amendment rights, and on that basis we 
will excuse you, along with the rest of the panel. That 
concludes the questioning of this panel.
    Senator McCaskill. If I could, Mr. Chairman.
    Senator Portman. Yes.
    Senator McCaskill. I certainly would invite you to stay and 
listen to the testimony of the second panel.
    Senator Portman. This concludes the questioning of this 
panel. You are excused from the panel based on your assertion 
of your Fifth Amendment rights. And, of course, you are welcome 
to stay. We encourage you to stay to listen to the next panel.
    [Pause.]
    We would now like to call our second panel of witnesses. 
The second panel represents really the heart and soul of the 
Subcommittee's investigation. Before us will be three parents 
of survivors who were advertised on Backpage.com. I am only 
going to use their first names at their request.
    First we have Tom and Nacole S.----
    Mr. Pfau. Mr. Chairman, they are in another room and are 
being escorted here.
    Senator Portman. Yes, we will certainly be patient and 
await their entrance. In fact, I am going to wait to describe 
them and their interaction with the Subcommittee until they 
have arrived.
    Mr. Pfau. Thank you.
    [Pause.]
    Senator Portman. We are now going to call our second panel 
of witnesses. Again, I thank the witnesses for joining us here 
today. This second panel, as I said earlier, really is the 
heart and soul of the investigation of this Subcommittee. We 
are going to hear from three parents of survivors. Those 
survivors were advertised on Backpage.com, as we have talked 
about earlier.
    I am only going to use first names today at the request of 
the parents and the survivors. We have Tom and Nacole S. with 
us. Tom and Nacole are the parents of a young girl we will call 
``Natalie.'' Natalie ran away from home at age 15. Shortly 
after running away, Natalie was recruited for prostitution and 
advertised on Backpage.com. It was a horrific ordeal, but 
eventually the local police department was able to recover and 
return their daughter to them.
    Also on this panel is Kubiiki P. Kubiiki is the mother of a 
survivor of online sex trafficking who was also advertised 
through Backpage.com. When she was 14 years old, Kubiiki's 
daughter ran away from her home in Missouri. Nine months after 
her daughter disappeared, Kubiiki discovered ads online selling 
her own daughter. It was on Backpage.com. Kubiiki contacted the 
website numerous times requesting that they take down the ads 
with her daughter, pleading with them. The ads remained on 
Backpage for a month and a half.
    I really appreciate you all being with us today and being 
willing to share your stories. The courage that you have in 
speaking up will help other girls, other women, other boys to 
be able to avoid the plight that you and your families have 
gone through, and I thank you for that.
    Without objection, we will also make part of the record the 
written testimony submitted by Sara Loe, a pseudonym used for 
the mother of another survivor from Massachusetts.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Loe appears in the Appendix on 
page 109.
---------------------------------------------------------------------------
    I will also enter into the record a letter submitted by her 
attorney detailing yesterday's decision by the Supreme Court 
denying her petition to review the case.\2\
---------------------------------------------------------------------------
    \2\ The letter from Ms. Loe's attorney appears in the Appendix on 
page 112.
---------------------------------------------------------------------------
    I would ask the witnesses now to please come forward and 
remain standing. It is the custom of this Subcommittee to swear 
in every witness, and we appreciate your raising your right 
hand to be sworn in. Do you swear that the testimony you are 
about to give before this Subcommittee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Ms. Nacole S. I do.
    Mr. Tom S. I do.
    Ms. Kubiiki P. I do.
    Senator Portman. Let the record reflect that the witnesses 
answered in the affirmative. Please have a seat.
    To the witnesses, let me say that your written testimony in 
its entirety will be printed in the record, and we would ask 
you to limit your opening statement, to about five minutes. 
And, Nacole, if it is OK, we are going to start with you. So 
thank you for being here, and we look forward to hearing from 
you.

        TESTIMONY OF NACOLE S.,\3\ MOTHER OF JANE DOE 1

    Ms. Nacole S. Good morning, Mr. Chairman and esteemed 
members of the Subcommittee.
---------------------------------------------------------------------------
    \3\ The prepared statement of Ms. Nacole S. appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    My name is Nacole S., and I want to thank you for the 
opportunity to be here today and represent myself and my 
family. I also hope I can be a voice for the countless other 
families not present here today, but whose lives have been 
forever changed by Backpage.com and similar websites that make 
their living hiding in the shadows of the law.
    Before I get any further, let me first say that I am truly 
honored to be addressing you as Members of the U.S. Senate. 
Neither I nor my family felt fully equipped to be testifying 
here today. We are not lawyers nor politicians. And our 
experience with the English language is not nearly as poetic or 
profound as other testimony you may hear. But after a lot of 
thought and a lot of prayer, we realized that this testimony is 
not about poetry. It is about telling a story, our story, and 
hoping that what you hear today makes a difference.
    It is also about keeping a promise to our daughter to bring 
justice to everyone that had wronged her. So instead, for a 
moment, let me address you not as politicians, but as mothers 
and fathers, aunts and uncles, and grandparents (if you have 
been so blessed as I have). These are the credentials that I 
can relate to, and you are the people that need to hear my 
story.
    In 2010, we were a close, loving family. We were realizing 
our American dream. We had built something for ourselves more 
valuable than money, more important than a big, new house or 
new cars in the driveway. We had built three lives, our great 
kids, ready to come into their own and make a difference in 
this world. Passionate about our children, we wanted and 
expected the best. I remember a conversation with a school 
guidance counselor who was chastising us about how we were 
going about filling out college applications for our son. The 
counselor was convinced that our son, a first-generation 
college student, would be best served by applying only to local 
schools. We, ever reaching, were convinced that he was better 
than that. It felt like our stubborn optimism and belief was 
rewarded when our son was accepted into a prestigious private 
engineering school in New York. We were not surprised at all. 
We were so proud of all three of our children, each national 
honor roll students, and at the top of their game. Little did 
we understand how dramatically our lives would change. In just 
a few short months, our American dream would be exchanged for a 
Third World nightmare and lead us to question everything.
    Our youngest, our baby Natalie, was something special. She 
was always the most energetic of our three children, so full of 
life and promise. She participated in varsity soccer, 
wrestling, and played the violin for her high school 
orchestra--all in her freshman year. That was Natalie. She 
tried to experience everything. And she was taking high school 
by storm in her light-hearted way. She was one of those kids. 
And only a family with one of those knows what that means. 
Natalie wanted to do everything at once--high energy, and 
nothing could contain her zest for life.
    Challenging as she was, she was exceeding every possible 
expectation a parent could have. It was amazing to be a part 
of, and none of us could have predicted that her innocent, 
carefree attitude was about to take her down a path that would 
shake our family to its very core. At the time, our family 
dynamic had changed, our son off to college, and her older 
sister was distracted by her own concerns. Natalie was 
struggling to find her place in her new world.
    Looking back, we understand that our daughter was burning 
the candle at both ends, struggling with all of the sudden but 
inevitable changes that were occurring. While they were good 
things to us, they were confusing and difficult for her. All we 
saw was an exceptional young lady doing exceptional things. But 
Natalie, in her own way, was sending out signals. It is easy to 
see now because of all the painful retrospection that comes 
with a tragedy, but impossible to see then.
    She made the implausible decision to leave the safety of 
our home. She wrote a letter, five pages long, telling us how 
wonderful her family was and that she loved us. But ``finding 
herself'' was the gist of the letter, and, of course, for us 
not to worry. Not certain of her choice, Natalie shared the 
letter with a friend, and like a sick game of telephone, it 
circulated the school. Now it was not just a letter, but a 
dare. It was her reputation at stake. So, backed into a corner, 
she left.
    Making her way to Seattle, she found herself in a teen 
homeless shelter. A woman there, 22, and posing as a teen, must 
have immediately noticed Natalie as an easy target. As smart as 
Natalie was, she had no idea of the danger she was in. And as a 
parent, it is hard to talk about what happened next. I cannot 
imagine her fear and bewilderment at what was happening to her 
as she was repeatedly raped, beaten, threatened, and treated 
like a sexual object every day, all while being posted on an ad 
on Backpage. I honestly try not to think about it. I can only 
tell you that when we finally got Natalie back for good, months 
later, the young girl we found was not the same Natalie that 
had left our home months earlier. I literally did not recognize 
her. Her appearance had changed so much. Her hair was cut and 
dyed. Of course, she was wearing different clothes. She did not 
even sound like herself anymore. Everything she was saying was 
incomprehensible to me. Our Natalie was gone. That was the 
beginning of our six-year odyssey to get here, to our new 
American dream.
    Our new dream is simple: to live in an America that does 
not stand aside while little girls like our daughter, Natalie, 
at 15, are sold online like a commodity, purchased with all the 
same convenience you would expect from an order on Amazon and 
always returned as damaged human beings, forever changed by 
their tragedy.
    It is time to accept that child sex trafficking has entered 
the digital age and has been embraced by it. The loose moral 
code and ``sisterhood'' of the streets is gone. There is no 
protection or accountability, and no escape. The same speed and 
anonymity that attracts so many to the Internet has made it a 
hotbed for the ugliest human behaviors, at the forefront of 
which are websites like Backpage.com. Backpage and similar 
sites have changed the rules of engagement for people who 
purchase children for sex. Any semblance of risk has been taken 
from the process. All the dark street corners have been 
replaced with the familiarity and comfort of the computer 
screens, and these men now make their illicit transactions from 
the safety of their homes, secure in the fact that no one is 
watching.
    While Backpage may wish to pretend that they are simply the 
virtual street corner in this metaphor, inanimate and 
blameless, that simply is not true. They are complicit. They 
are more like the corrupt authority figure, paid to look the 
other way--and paid well, I might add--reporting a few 
suspicious advertisements every year to feign compliance or 
concern, all while letting thousands of others slip by. We have 
reason to believe that their level of involvement goes further 
still to enable and streamline the process of illegal 
prostitution and child sex trafficking on their website, and 
yet so far they have gotten away with it.
    The question is: How? How could such a horrific, morally 
bankrupt business model find success in our America? Backpage 
and its facilitators continue to operate as they do because 
they feel the same level of immunity as the purchasers of 
children for sex sitting behind their computer screens, because 
they also believe they are protected. Hiding behind old laws 
and the mantra that somehow any action on the Internet is free 
speech, they carry on unabashedly while children like our 
daughter are repeatedly raped day after day. They claim to be 
protecting First Amendment rights, while at the same time 
allowing my little girl, a young bright-eyed resident of an 
all-American neighborhood, to be sold on their website as a 
``Weekend Special.''
    I ask you now: Where were her rights to be heard? What 
immunity was there from these unspeakable acts or from the 
damage that it caused her and our family? It is time to admit 
the truth to ourselves that this was never about protecting the 
Constitution. This is about abusing constitutional protection 
for greed and gain, no matter the consequences. In reality, 
Backpage CEO Carl Ferrer is no warrior for free speech. He is 
just another pimp, one who happens to have a lot of expensive 
lawyers on retainer.
    My family believes in a just America. We believe that, in 
time, our government and our people will realize that the moral 
cost of the current path is too high. We would like to ask this 
Subcommittee, the parents, aunts, uncles, and grandparents 
present here today: How long? How long until the changes are 
made to prevent what happened to our daughter from happening to 
another child? Because it has been six years for us. And while 
my family has not rested, neither has the evil that took our 
Natalie from us. Please do not let another innocent child be 
sold in America in an online advertisement and let their spirit 
be crushed.
    I have heard it said many times that the Communications 
Decency Act does not need a rewrite to prevent another tragedy 
like the one that befell my family, just a few words, carefully 
crafted. A few words to end online child sex trafficking in our 
country, so that we can honestly and with pride say that we 
live in the land of the free.
    I would like to thank you for your time on behalf of my 
family, and I would also like to thank the dozens, if not 
hundreds, of people who have helped to get us this far over the 
years. Only with their help have we had the strength to 
continue this cause.
    Thank you.
    Senator Portman. Nacole, thank you, and I would say to your 
statement earlier that your statement was not going to be as 
poetic or profound as others, I do not think we have had a 
witness before this Subcommittee that was as profound as that. 
And it was poetic in your own way, and thank you for your 
willingness to testify to a lot of pain that your family has 
gone through.
    Tom, we would like to hear from you.

          TESTIMONY OF TOM S.,\1\ FATHER OF JANE DOE 1

    Mr. Thomas S. Good morning, Mr. Chairman and esteemed 
Members of the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Tom S. appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    I am a husband, father, and grandfather. I am a simple man, 
raising his family. I now find myself in this fight, mainly in 
support of my wife and daughter. Until today I have been in the 
background, but I am here today because I do not see any future 
prospect of living a life where we do not have to mention this 
ordeal we have been living at least once a day.
    I can tell you that I was very intimidated and awestruck 
thinking about what to say here today to our American 
leadership. How can I tell you anything, describe anything in a 
way that could make a change? I am humbled at that idea. I have 
watched my wife with respect and pride, trucking along in this 
incomprehensible battle against long odds, a true David and 
Goliath fight. I am not as optimistic and hopeful as she is, 
and let me tell you why.
    During this six-year nightmare, two things have struck me:
    First, that somehow children have become a bargaining chip. 
They have become bystanders in the outcome of a fight that has 
been labeled as being about Internet freedom and they are just 
collateral damage in the huge industry of modern convenience 
that we all enjoy online. I cannot bring myself to accept that 
these kids are just the cost of doing business in today's 
world.
    Second, I have been disgusted and shocked by the commitment 
and stance that Backpage has taken, that Backpage somehow 
thinks it has the right to sell my child, and that the First 
Amendment gives them the right to do so and there is nothing 
anyone can do about it. And this is not just their business 
opinion. They are shouting this argument from every court in 
the country. I cannot believe the contempt and lack of humanity 
they have taken. Not only do they admit to selling kids and 
human beings, they have doubled down to protect their right to 
do so. They are committed to selling people on the Internet. 
How can it be that we are even debating this here today?
    Backpage hides behind the Communications Decency Act, and 
they collect their money, all the while pretending to support 
the lofty, high-minded principles of the First Amendment. Even 
more amazing is that they usually win.
    In my mind, it is simple. What happened to my daughter on 
Backpage.com is criminal. What happens to every child sold for 
sex on Backpage.com is criminal. Children are not acceptable 
collateral damage. They are our hope, our future, America's 
conscience.
    Now that I know you have heard our story, I know you can do 
something to prevent any more children from paying this 
horrible price.
    Thank you.
    Senator Portman. Thank you, Tom. I appreciate that, and we 
will have a chance to have further dialogue in a moment here 
with the Senators.
    Kubiiki, thank you for being here. We look forward to 
hearing from you.

        TESTIMONY OF KUBIIKI P.,\1\ MOTHER OF JANE DOE 2

    Ms. Kubiiki P. Thank you. Good morning, Mr. Chairman and 
esteemed Members of the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kubiiki P. appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    In 2009 and 2010, when my daughter, M.A., was 14 years old, 
she was sexually trafficked on Backpage.com. The Backpage ads 
of my daughter had nude and sexually explicit photos of her. 
The ads were posted on Backpage to advertise my daughter for 
sex with adults.
    Backpage was aware that explicit and pornographic 
photographs were on its website. They also knew that some 
escort ads on their site were for children, like my daughter, 
who were being trafficked. I know this because after my 
daughter was recovered, ads with her photos continued to be re-
posted on Backpage, causing her significant distress. I called 
Backpage numerous times and explained that I was the mother of 
the child pictured in these sexually explicit ads. And I 
explained that my child had been sexually and physically abused 
by being trafficked on Backpage. And I begged for them to 
remove the photos. Eventually, the ads were no longer posted, 
but Backpage did not remove them immediately after I called 
those numerous times.
    My daughter was trafficked on Backpage for months at a 
time, and what she went through on a daily basis is still 
unimaginable to me. And it would be unimaginable to most of us 
in this room. Still, it was not until after she was recovered 
and brought back home to me that I started to realize the full 
extent of the trauma she suffered and the impact her suffering 
from being trafficked on Backpage would have on my entire 
family.
    In 2010, when my daughter was recovered, I was living in 
St. Louis with my other children. M.A. had been missing for 
nine months, and then all of a sudden we had her back. But what 
was happiness initially turned into a world of craziness 
because we found ourselves in a world without adequate support 
and professional resources to help us. At that time, there were 
no resources for child sex trafficking victims in the general 
area where I lived. I feel so fortunate that I was able to 
connect with smaller organizations from other parts of the 
country who supported my daughter and me. They were a lifeline 
to me at this time, but their resources were limited. And I was 
able to benefit from their help only because I was lucky enough 
to find their services. But I think of all the families who 
were not so lucky.
    Even with the help I did receive, the pain our family 
suffered was immense. My other children did not know how to 
process what had happened to M.A. or how to help to support 
her. Our community did not understand the exploitation she 
suffered. The news reports of the arrest and trial of my 
daughter's trafficker further publicized her trauma.
    This continuing trauma that was caused by my daughter's 
very public trafficking on Backpage kept her from having a path 
forward to heal when she came home to us. She turned inward 
instead, to silence and self-blame. And I quickly realized that 
if my family was going to have a chance to heal together, we 
needed to move to a new city and a new State where we could 
find resources for my daughter and more support for me as a 
mother to help my daughter and my children to move forward.
    We are still in the process of healing, even now eight 
years later. But I am here today and still talking about our 
experience because it is so important for everyone to 
understand what we went through and to talk about what can be 
done to help children like my daughter.
    First, there must be stronger laws to protect children 
against exploitation. There is no other way to state this: The 
laws must be strengthened. If there are loopholes or if the 
laws are outdated or misinterpreted, then these gaps must be 
fixed. No child should ever have to endure what my daughter 
went through. And I say this because I know that even now, 
eight years, later children continue to be trafficked for sex 
on Backpage.
    But we just do not need new laws. We need more coordinated 
support for victims and their families at the Federal, State, 
and local level. This includes coordinated support from 
government agencies and private social services. When my 
daughter was recovered, I could not easily find the right 
services to help her heal. And I know these services would not 
have undone the damage that was done or the trauma she 
suffered, but they would have helped her start a path to 
recovery that even now, as an adult, she struggles with on a 
daily basis.
    We also need a more coordinated legal process among 
Federal, State, and local prosecutors when a child is 
trafficked. We need new laws and processes to make sure that 
every child that is a victim of trafficking and is exploited 
receives restitution from everyone who harms them. The limited 
process for court-ordered restitution that exists today does 
not work.
    My daughter's trafficker has been in and out of jail. The 
court ordered her to pay restitution to my daughter, but she 
has paid nothing, and there is no process to help me collect 
this restitution. As you know, when I tried to get restitution 
from Backpage for being involved and profiting from the escort 
ads of my daughter's body being sold for sex, they rejected my 
case. Like the trafficker who was paid from the sale of my 
child's body, Backpage was allowed to pocket all the money from 
this crime, but my daughter has never received any restitution 
for her victimization.
    Another rarely discussed issue is the need for more social, 
psychological, and emotional support for the exploited children 
and their families. My family was so isolated after this 
happened, and it was devastating. The family of a child who has 
been trafficked and exploited needs a lot of help to manage 
their economic needs, family dynamics, and emotional 
functioning.
    Today my daughter is back home with me. I cherish the 
ability to hold her and help her as she works through 
challenges toward a better future. But I still do not have any 
answers to explain why this happened to her or why everyone 
responsible for hurting her and causing her trauma has not been 
held responsible. Meanwhile, I know children continue to go 
missing, are lured and run away, and too easily can become 
another escort ad on Backpage.com.
    When I first started to talk about my family's experience, 
I was depressed and taken aback to find out how little the 
public knew about child exploitation. They did not understand 
that child sex trafficking happens here and everywhere in this 
country. They did not realize that every child can be 
vulnerable at one point or another. And it scares me that 
children are not taught how vulnerable they are to this crime 
and what they can do to protect themselves.
    We need real prevention and awareness programs on 
trafficking and exploitation. Anywhere that children and 
parents interact--including schools and churches, hospitals, 
community centers, police and social service agencies--should 
disseminate prevention and awareness information. We need the 
public and children to understand that the crime of child sex 
trafficking happens. It can happen to children everywhere. And 
it is never a child's fault when they are forced into 
trafficking. Prevention and awareness would increase empathy in 
our communities and help children like mine and families like 
mine feel supported in their time of greatest need.
    I would like to thank you for your time today and also 
thank you on my daughter's behalf. Having lived with this issue 
for the past eight years, I can tell you that we still need 
real changes to help our children and to make sure no child is 
ever sold again on Backpage.
    I hope you will continue your efforts.
    Senator Portman. Kubiiki, thank you for your willingness to 
share your family's story, and to each of you, Tom, Nacole, and 
Kubiiki, thank you for your advocacy for not just your 
daughters but for children everywhere. And as Kubiiki talked 
about, advocacy, prevention, awareness, treatment, prosecution, 
Tom talked about these are kids, not collateral damage; 
Kubiiki, you talked about how we cherish our children. That is 
ultimately what this is about.
    Your testimony also helps us as a practical matter to 
understand how the current laws are affecting families and our 
constituents, and reference was made to the Communications 
Decency Act a lot today in the earlier panel and in our opening 
statements. That is an example of that.
    What I am going to do is turn to my colleagues for 
questions. I will be around here until the end, and a lot of 
them have patiently listened today, and I want them to have the 
chance to talk a little bit and to ask questions of you all. 
Again, it was profound, Nacole, and we appreciate your being 
here.
    With that, I will turn to Ranking Member McCaskill.
    Senator McCaskill. First, I want thank the three of you 
from the bottom of my heart. There is no harder task than 
feeling helpless when your child is in the kind of pain that 
your children have been in. And I think you have been 
incredible role models to the rest of the country today, and 
your courage is very admirable.
    I also will turn over the questioning to my colleagues. I 
will also be here until the end. But I do think it is important 
that we provide some input today on the resources that are out 
there, because right this moment there is a family somewhere 
who cannot find their daughter, does not know where she is, and 
has the worst sinking feeling that the very worst, unimaginable 
things are happening to her. And if we can do nothing more 
today than hold the people accountable on the first panel and 
give more information to families with your testimony today, 
then I think we have put in a good day's work here. And you are 
huge part of that, so thank you very much. And I will also 
defer to the other members of the Subcommittee.
    Senator Portman. Thank you, Senator McCaskill.
    The order that we have from arrival at the hearing is 
Senators Hassan, Tester, Heitkamp, Harris, Daines, Johnson. We 
will start with Senator Hassan.
    Senator McCaskill. She left.
    Senator Portman. I should have looked over there. Senator 
Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. And I thank 
you and Senator McCaskill. But, more importantly, I thank you 
guys. The strength and power of your testimony is amazing to me 
you are able to sit here and do this, because of the pain, the 
hatred, the anger, the concern, all these emotions that have to 
be flowing through your heads at this time.
    But what I really want to say is that the solution to these 
problems, since you have been through it, unfortunately, is 
doing what you have done today and continuing to tell your 
story so that we as policymakers can do things like work to get 
you the resources you need when these horrible things happen, 
and do everything we can do to prevent them from happening 
initially.
    You never quit loving your kids. It does not matter if they 
are newborns or 25 years old. Just they are always your kids. 
And I just cannot thank you enough for what you are doing. The 
truth is that we all need information. This is something nobody 
wants to even think about. It is horrible. But you being here 
today and being able to talk about what is happening to you and 
your family and your children is going to be helpful in finding 
a solution to preventing this from ever happening again and 
making sure that you have the kind of resources you need.
    I just have one question for you, Kubiiki, and it dealt 
with your statement. You said that you approached Backpage with 
getting you resources, because all that stuff costs a ton of 
money, and it was rejected. Was it rejected by Backpage or was 
this a court rejection?
    Ms. Kubiiki P. This was a court rejection. In 2010, I filed 
a lawsuit against Backpage.com asking them to--first, I must 
tell you that the lawsuit never would have come about had they 
removed the pictures of my daughter when I called and asked.
    Senator Tester. Right.
    Ms. Kubiiki P. And because they did not, I sought out legal 
help to make them remove the photos. Only then did I realize 
that this is what child trafficking is. Only then did I 
understand that. But it was in the court of law that my case 
was denied.
    Senator Tester. OK. I just think that every one of us up on 
this rostrum believe strongly in the Constitution and the 
protections it gives, but it should never be a document that is 
used to protect child traffickers or prostitution. And so we 
hear you. This will not be resolved tomorrow, but I think if we 
work on it all together, we can get resolution to this problem, 
at least in part.
    Thank you all very much for your strength.
    Senator Portman. Senator Heitkamp.
    Senator Heitkamp. Thank you so much, and thank you so much 
for your courage and for your advocacy for not just your 
children but children across America. That is who you are 
sitting there representing today, not just your child but all 
the children that we as adults promise we will fight to 
protect, because they are all our kids.
    One point that I want to make, because I think sometimes 
people maybe do not appreciate, but there but for the grace of 
God goes anyone in this room who could be in your chair. You 
are not unique. This can happen in any family. And until we 
really get people to appreciate and understand that, we will 
not build the army that we need because Backpage is a small 
part of this. If Backpage goes away tomorrow, which we would 
all love, there will be another Backpage. There will be another 
run at this. And if we do not stay vigilant together, if we do 
not walk together, if we do not fight together, if we do not 
believe that we can conquer this problem together, we will not 
do our job as adults in America.
    And so we sit here with no greater power than those of you 
who sit at this table and those of us who are in this room. No 
one has greater power. But together we have the most power to 
prevent this from ever happening. And the invisibility--I 
think, Nacole, you said it so correctly. This is no longer the 
street corner where we can look, where law enforcement can 
drive by and say, ``I do not think that is a kid that is 
volunteering to be out here.'' This is no longer the street 
corner. The street corner now is digital. And until we start 
exposing all of the wrong that happens to children in this 
digital media and stop standing behind inappropriately 
important constitutional protections in this country, we will 
surely fail.
    And so I want to tell you that we are in this fight with 
you and no one here is giving up. No one from the McCain 
Institute is giving up; Cindy is not giving up. Kamala is not 
giving up. We are not giving up, because there is a way to do 
this. And as smart as their lawyers think they are, we are 
pretty smart, too. And we have a whole lot of people behind us 
who are thinking how we are going to get this done.
    But we need to figure out the second piece of this. There 
are two other pieces: prevention and recovery. And you all have 
spoken so eloquently today about recovery and about services. 
We have been trying to reauthorize the Runaway and Homeless 
Youth Program because a critical piece of this is making sure 
kids--Nacole, tragically, I am so upset at how your daughter 
was courted and got into this was in a shelter. So what do we 
need to educate shelter workers that this can never happen, 
that they have to be more vigilant about preventing this. What 
can we do to get more kids off the street? What additional 
resources do you think would be valuable in the prevention 
side? And I would ask anyone on the panel.
    Ms. Kubiiki P. Well, I would say as far as prevention, 
every kid has a cell phone now. Every kid has access to this 
evil and this evil has access to them. Prevention would 
probably start with educating them about the way that predators 
are able to contact them and to ease their way into their 
lives.
    Just the other day, some grown man comes into my daughter's 
Snapchat DM. It is very easy for people to pick and choose. 
When social media sites post the pictures, you are choosing to 
post your pictures, and then there is a predator on the other 
side behind that screen that is preying on these kids. But if 
you do not teach your children--because that is Ground Zero 
right there, teaching the children and teaching them at an 
early enough age--just like sex education, you are teaching 
that in school. Why not offer an Internet class to teach these 
children how to navigate through this world that we are all 
still trying to figure out, we are all still having a problem 
with it? But we can do all we want, but they are the victims. 
And so you have to educate them at that level.
    Ms. Nacole S. I would agree that earlier prevention 
techniques at a much younger age, because you have children as 
young as eight or nine that are getting cell phones. Even 
though there are parent protections on there, children are very 
smart and can find their way around that, so starting 
prevention at a much younger age.
    Also, first responders. My daughter in my case was arrested 
twice prior to being recovered, both times held in adult jail 
and both times released back to her trafficker. So first 
responders, people that come in contact with these young girls 
or young men in hospitals or on the street need to be educated 
on what they are looking for.
    Also, having in place--in my case, upon recovery, she was 
taken immediately to the emergency room for all the testing 
that you would find reasonable--AIDS, sexually transmitted 
diseases, pregnancy. And the resource I was given at that visit 
was a pamphlet on domestic violence and told to have a nice day 
and there was nothing they could do for me. ``I am sorry. She 
has had too many partners. We cannot do a rape kit.'' OK. This 
was not domestic violence. There was no resource outside of 
that in my community that was given to me that said you need to 
call this person. That is where the case was left, right there.
    Senator Heitkamp. Right. If I can just indulge, Senator 
Collins and I have a bill called SOAR, which is to do better 
training for emergency room and medical responders. But every 
suggestion that you have, every thought that you have is 
valuable as we navigate not just the enforcement piece of this, 
but as we navigate the prevention and recovery piece of this, 
which we all have to be in together.
    So thank you, Mr. Chairman, for indulging some extra time.
    Senator Portman. Senator Harris.
    Senator Harris. I just want to thank you all for the 
courage that you have shown. One of the points that you have 
made so clearly and must be made continuously is these are 
children.
    The images that are depicted on Backpage are purposely 
presented in a way that suggests that they may be adults. But 
as any of us know who have children, even if that girl is 
physically developed, as soon as she starts talking, you know 
she is a child. And the reality of it is that, as Senator 
Heitkamp said, these are not only your children; they are the 
children of our community. They are all of our children. And so 
we all have a responsibility to protect them as children.
    Your voices as their parents are so important to making 
that point clear. And as difficult as it is for you to have the 
courage to expose yourselves and your family's story by sharing 
with us what has happened, you are being a voice for so many 
others out there that cannot be in this room, do not know where 
this room is, do not know this room might be a safe place for 
them. And in that way, you all are doing the work on behalf of 
people who are never going to know your name, people you will 
never meet.
    So keep fighting. And no matter how big Backpage might 
pretend itself to be--they walk around thumping their chest--we 
are bigger, and there are more of us who are on this side of 
it. So let us keep fighting. It is an uphill battle to be sure, 
but we are always on the side of right when we are fighting to 
protect our children.
    And, yes, this is a new world because of technology. This 
stuff usually happened on the street. It now facilitates, 
because of technology, coward both in terms of those who 
traffic and those who buy other human beings who are children.
    And so we are going to have to adjust to this new world 
with our laws, with our procedures and policies and practices, 
but you all as the parents of these children are going to 
continually give us a reminder and a conscience and the courage 
to fight for what is right. So I just want to thank you. I 
really do thank you.
    Thank you.
    Senator Portman. Thank you, Senator Harris.
    Again, to our witnesses, you are here talking about 
Backpage, but you also have the opportunity to speak to this 
broader issue of how do we help with prevention and increase 
awareness, which I think this hearing has done just by us 
talking about these issues, and how do we improve recovery 
services and be sure that people are held accountable.
    One of the things that I found most disturbing about your 
testimony was the fact that you saw your daughter online, that 
you knew it was your daughter. And yet the website, Backpage, 
refused to take down the ad. So as a father and an uncle, I 
just cannot imagine the frustration, the pain you must have 
felt. And I am not going to ask you to recount anything that 
you are uncomfortable with, but if you could just talk a little 
about what happened. When you called them and said, ``My 
daughter is on your website being sold for sex, my 14-year-old 
daughter,'' what did they say? What happened?
    Ms. Nacole S. I am going to defer to Kubiiki because in my 
case we were looking at the wrong website. I had never heard of 
Backpage.com.
    Senator Portman. Most people have not.
    Ms. Nacole S. We were looking on Craigslist because we were 
at the end of 2010 and Craigslist was still up. So although my 
husband was checking Craigslist, we were on the wrong website. 
So I never contacted Backpage about my daughter being exploited 
there, but I know she did, and I am going to let her speak to 
her experience.
    Senator Portman. Kubiiki, tell us what happened.
    Ms. Kubiiki P. I do not remember the date, but maybe it was 
about 4:00 in the morning, and I had used Backpage on a regular 
basis like the classified ad site that it is or that I assumed 
it to be, and I had sold old toys, and items that my kids never 
really liked, clothes. And so I was familiar with Backpage but 
had never even paid attention that they had that escort 
section. And it was only when my husband asked me if I went 
through the pictures on Backpage that I began to look, and it 
shocked me because what I had seen on Craigslist, even though 
they shuttered their escort section, I still knew that there 
was human trafficking going on on that site.
    But to look at the way Backpage had made it look so pretty, 
they give the options to put bows and buttons and smiley faces 
to give the appearance that it is a young person without saying 
so. I got to the third ad on the page that I pulled up and knew 
that it was my daughter even though I had not seen her face. I 
knew because of a tattoo that when I saw her at the grocery 
store while she was missing, trying to catch her, I said, 
``What is that on your hand?'' And she snatched away. So I knew 
when I saw this tattoo that it was my daughter. But it was not 
until the third day when the new pictures came up with her 
face, her body nude with an adult woman, that I realized 
exactly what was going on, because I could not wrap my brain 
around it at first. And I called Backpage and I spoke to a lady 
that answered the phone who asked me what she felt were very 
important questions, if I had proof or identification that this 
was my daughter, if I knew that this was my daughter, how did I 
know that this was not someone else. They assumed this to be an 
adult--all while I am trying to keep my composure and say to 
them, ``Hey, please, take these pictures down. This is my baby. 
She is hurt.''--We can talk about the physical damage that she 
suffered when she came home to me, my daughter had been burned 
maybe about 60 percent of her back with cigarette butts. Her 
scalp had been burned. Her hair had been shaved. We can talk 
about all of that. But right now, eight years later, the pain 
is so intense. There has been no true healing. And the way that 
the programs are set up--and I would say that I was there kind 
of at the beginning when there were no programs. But to see how 
far it has come and to realize that you are still missing key 
elements. You are still missing that when this damaged child 
comes back home, the community that surrounds this child is 
still not educated, so they are placing blame. The children 
inside this home, the siblings to this victim, do not 
understand because they are not educated. The parents feel 
guilt. A lot of people place blame on the fathers because they 
are not educated.
    So if there is anything to be said of this whole situation, 
it is that knowledge is the key component that is keeping us in 
this clutch of people going back and forth, because they do not 
truly understand. But if you make them understand--I see how 
Mothers Against Drunk Driving, how that campaign just kind of 
went everywhere and people understood, and it is like, hey, we 
are all on the same team. But there are so many people that 
still make the statement, ``Well, a person should have the 
choice to sell their body,'' when we are not even talking about 
adults, we are talking about children. So, clearly, there is a 
disconnect. There is not enough conversation about what our 
future is going to look like if we keep destroying our 
children. And Backpage, they are playing a very large role in 
that. And not saying that it is not going to happen again, not 
saying that it is not going to happen on a different site. Just 
saying that if you make people feel the fear of the 
repercussions from the damage that they do, then maybe they 
will think about it, because Backpage is not thinking about it. 
They are just saying, because of my Fifth Amendment rights I am 
not going to say--you know what I am saying? It is like they do 
not care, there is no remorse. But all of you have the power to 
start the programs and to lead this into a different direction.
    Senator Portman. Kubiiki, as we talked about, based on the 
evidence that we were able to uncover finally, it is all about 
the money. It is all about the profit. So my understanding is 
when you first called and you talked to that woman on the 
phone, didn't she also say to you, ``Did you post that ad?''
    Ms. Kubiiki P. Yes, she said, ``Did you pay for it? Do you 
have the credit card that paid for this ad?''
    Senator Portman. And she basically was saying, ``Unless you 
paid for the ad, we cannot take it down.'' And, wow, after a 
mother calls and says, ``That is my baby,'' the response is, 
``Did you pay for this ad?'' Is that what happened?
    Ms. Kubiiki P. Yes, sir. And they hung up numerous times. I 
called many times, going off, being very angry. I understood 
the reason why they stopped answering my calls. I got it. But 
it still did not make them take the pictures down. So they did 
not get it.
    Senator Portman. This is, again, a hearing focused on 
Backpage. As you say, they are a big player in this. Probably 
80 percent or more of the commercial sex business is on this 
one site now. And the fact that they took down their adult 
section last night, as the National Center for Missing and 
Exploited Children said last night, that will save some kids. 
That will help. But it is not the ultimate answer because even 
if they continue to keep this site down, other sites will crop 
up, including some other sites that are connected to Backpage. 
And so we have a broader responsibility here.
    There is an increased awareness here in the U.S. Senate, as 
Senator Heitkamp, Senator McCaskill, Senator Harris, and others 
have talked about, and that is good. We have a caucus now on 
human trafficking. We have more Senators who understand it. We 
have some good legislation that was passed about a year and a 
half ago now on prosecution of those engaged, increasing that 
level, more resources for recovery, treating these victims as 
victims, not as criminals, which is just a paradigm shift. But 
it is also expanding, I would say even exploding. It is the 
dark side of the Internet, right? And the victims I talk to 
almost to a person tell me, ``Rob, it has gone from the street 
corner to the iPhone.'' And this is where you see this huge 
increase. And drugs play a big role, too, in my home State, and 
specifically making young people dependent on drugs. And that 
is part of the human trafficking, modern-day slavery aspect of 
this, is that dependency, and not just on drugs. It goes beyond 
that. But this is why I think we need to do new things both on 
the community front in terms of the prevention, awareness, and 
the better recovery services and educating the first responders 
and those who are dealing with this issue day to day in 
emergency rooms and others, but also in terms of the legal 
environment.
    And so we will talk about this in the closing in just a 
moment, but Senator McCaskill and I are committed to continuing 
this effort, not just this one specific goal of uncovering 
information that was not previously known about Backpage that 
will help us to be able to pursue actions against them and keep 
them accountable, but this broader effort of, as Nacole said at 
the start, looking at the laws differently because we have a 
different environment now, and the laws have not kept up in my 
view.
    With that, I will turn it over to Senator McCaskill for 
questions.
    Senator McCaskill. I actually do not have any additional 
questions, but I would take a moment at this point in time, Mr. 
Chairman, to make just a few closing comments. Most 
importantly, I want to put on the record a couple of phone 
numbers. The National Human Trafficking hotline is 1-888-373-
7888, and the National Center for Missing and Exploited 
Children is 1-800-THE-LOST, 1-800-843-5678.
    I should also mention the McCain Institute. It does a lot 
of work in this area and would be happy to help anyone who is 
in that incredibly dark place where they have lost their child 
and do not know where to turn.
    I certainly know that my office and the other Senators' 
offices are always available to try to help and make sure that 
the right resources are made available, and I really appreciate 
the point you all have made about resources after the fact. I 
mean, Humpty Dumpty is on the wall. Humpty Dumpty falls off the 
wall. And then no one is there to help put Humpty Dumpty back 
because it is hard and it takes extended time and effort, and 
many families are just not ready to handle that burden because 
they do not know the right thing to do. They do not know 
whether to wrap up their child in cotton batting and make sure 
they never go anywhere or to be more open and accepting. It is 
just really tough, and we have found this over the years with 
so many sexual assault victims that the lack of resources is 
really a huge problem. And I remain committed to making sure 
that we are doing everything we can from where I sit on that.
    I also want to make sure today, as we near the end of this 
hearing, that people read this report who are in the field, and 
not just the Executive Summary. There is a treasure trove of 
evidence in this report. As someone whose job it was for many 
years to make sure I had enough evidence to prove beyond a 
reasonable doubt that someone had committed a crime, I want to 
send a very clear message to police, to local prosecutors, to 
U.S. Attorneys, to the Federal Bureau of Investigation (FBI), 
to Attorneys General across this country that there is evidence 
in this report that can assist you in holding people 
accountable for what has gone on to young women and young men 
across this country. What we have been able to do is put in one 
place a lot of information that would have caused a different 
result in lots of lawsuits across this country and lots of 
decisions that were made by local prosecutors as to whether or 
not there was an actionable file in terms of criminal 
prosecution.
    So I hope that this is not one of these reports that goes 
quietly into the night. I hope this become a go-to resource for 
prosecutors, police, and other people that enforce our laws 
across this country. I am confident that there is sufficient 
evidence here to hold some of the people responsible for this 
accountable in ways that have been very frustrating to the 
families.
    And then, finally, I want to thank the staff. Sometimes it 
is hard when you are working in a bipartisan way because, I 
have ideas and I tell my staff this is what I want, and Senator 
Portman has ideas and tells his staff this is what he wants. 
And sometimes it is not identical, and you have to keep talking 
and you have to keep communicating and you have to work out 
differences. And particularly because this was challenging in 
terms of the roadblocks we faced, I just want to commend the 
staff. Keep in mind, someone looked at over a million pages of 
documents. They did not get consumed by some software program. 
There were people who put in long hours on this staff, both 
Republican staff and Democratic staff, to produce this report. 
And I stand in awe of their public service. I am sick and tired 
of everybody who works for the government being a bad guy. 
There are some amazing, dedicated public servants that work and 
get paid by your tax dollars, and this is a great example of a 
group of them that have worked hard and done the right thing, 
and I want to thank them from the bottom of my heart.
    Thank you.
    Senator Portman. Thank you, Senator McCaskill. And, again, 
I want to thank the witnesses for joining us today on this last 
panel. You have made a nice contribution to the inquiry and, 
more importantly, your testimony is going to help to inform us 
going forward on some of these legislative challenges that we 
have here.
    This concludes our fact finding on the Backpage matter, and 
it is a fitting finale for Senator McCaskill who you just heard 
from as the Ranking Member. As you may have heard, she is 
moving up in the world. She will now be the ranking Democrat on 
the full Committee, and so we are going to lose her as Ranking 
Member of the Permanent Subcommittee. But I am proud of the 
important work we have done together. She has been a good 
teammate. As she said, we may not always agree in terms of some 
of our objectives, but we have managed to come together and 
figured out ways to get things done in a number of 
investigations, including this one. I am looking forward to 
working with our new Ranking Member, who will be Senator 
Carper, the former Ranking Member of the full Committee. And he 
and I are committed to maintaining PSI's reputation for 
rigorous, bipartisan fact finding wherever it leads.
    And I think this investigation has been a great example of 
that. Two years ago, Senator McCaskill and I set out on this 
mission. We knew that online sex trafficking was a serious and 
growing problem. To be frank, we did not know enough about how 
it worked, nor did anybody, because so much of it had been 
hidden. And now, thanks to this investigation, we know that the 
largest online marketplace for trafficking, as we heard today 
in the summary of our report, has done a number of things. It 
clearly was done to conceal criminal activity. Advertisements 
were deliberately sanitized to conceal evidence of 
prostitution, to conceal evidence of child trafficking.
    We know Backpage has hid its systematic editing practices 
from the public for years while convincing the courts and 
Congress it was just a host for third-party content, entitled 
to an immunity under Federal law for that reason.
    We know now that Backpage's claims to be cooperative with 
law enforcement and the National Center for Missing and 
Exploited Children were misleading.
    We know now who really owns Backpage--its CEO and original 
founders still do--and that it is widely reported sale to a 
Dutch entity was really just a ruse, probably designed to 
simply launder the money that Backpage was making on illegal 
advertisements through a Dutch company.
    All this will help us and help our colleagues enormously as 
we consider these changes to Federal law, Federal spending 
priorities, as we talked about today, as we continue this 
obvious need to combat the challenge of child trafficking 
online.
    But I must tell you this. It seems likely that Backpage has 
been breaking the law as it exists right now, so, I do not 
think we have to go and reform legislation in order to find 
culpability here. Based on the evidence we have collected and 
the testimony we have received at our two hearings on this 
subject, Senator McCaskill and I will promptly consider whether 
to refer this matter to the Department of Justice (DOJ) and to 
State Attorneys General across the country for further 
investigation.
    Before we close, I have something to say--and I think 
Senator McCaskill agrees with me--about the conduct of the 
lawyers who have appeared before the Subcommittee in this case. 
As you know, subjects and witnesses in an investigation have an 
absolute right to hire lawyers to represent them zealously, 
represent their interests, defend their constitutional and 
legal rights, as we saw today. We respect that. But I will say 
that Senate committees also have the right to expect something 
of the bar as well. We expect candor. And in this case, it has 
become apparent that many of the lawyers for Backpage carefully 
arranged matters so that none of them was ever in possession of 
a straight answer.
    Let me give you one example. It may seem like a small one, 
but it is illustrative.
    On December 30, just a week or so ago, the counsel for 
Backpage wrote to Senator McCaskill and me asking that Mr. 
Ferrer, Mr. Lacey, and Mr. Larkin be excused from appearing 
today on the grounds that they were required to be in 
California for an arraignment tomorrow morning. We thought that 
sounded reasonable enough until we learned that three days 
before, on December 27, the California Attorney General's 
office had confirmed in writing to the defense team that, in 
the event of a conflict with PSI's hearing, the defendants 
could get a continuance of their arraignment. The lawyers did 
not disclose that, obviously a material fact, in their letter 
to us. Then just last night, after being warned about it, 
counsel once again repeated the same misrepresentation in a 
letter to all Members of this Committee--again, without 
disclosing the Attorney General's agreement to excuse the 
defendants from appearing in the event of a conflict.
    I just raise that as one example of what we have been 
through in this investigation. Sadly, it is the sort of conduct 
we have come to expect in this case. We are left to conclude 
that counsel has not been appropriately candid with this 
Subcommittee. Lawyers have to take care to ensure their 
representations are true to the best of their knowledge after 
taking reasonable steps to make sure they are true. As we go 
forward with this Congress, Senator Carper and I will discuss 
how we can improve PSI's rules to reinforce that duty of 
candor.
    Again, as Senator McCaskill said, we owe a lot to the 
staff. I want to acknowledge their hard work, both the majority 
and minority staff. This investigation spanned nearly two 
years, a lot of hard work, a lot of late nights. They did 
review over one million documents. We are very grateful for 
their efforts and very proud of them.
    I would like to give particular attention, if I might at 
the end, to a staff member who is leaving us after this 
investigation. Brian Callanan, who is the Majority Staff 
Director and General Counsel, is leaving the Senate soon to 
reenter the private sector. He has ably led the staff of PSI 
for the last two years and previously served as a key policy 
adviser to me. He leaves very big shoes to fill. We are pleased 
that Matt Owen, our current Counsel, will be succeeding him. 
But I would like to thank Brian for his wise counsel to me over 
the years and for his remarkable service on this Subcommittee 
and to the Senate and the public. We wish him the best of luck 
in his new endeavor.
    With that, the record of this hearing will remain open for 
15 days. We are adjourned.
    [Whereupon, at 12:20, the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
